No. 21-231

In the Supreme Court of the United States
JULIE ELLEN WARTLUFT, f/k/a Julie Ellen Bartels and FREDERICK L.
BARTELS, JR., as Administrators of the Estate of Abrielle Kira Bartels, Deceased,
Petitioners,
v.
THE MILTON HERSHEY SCHOOL and HERSHEY TRUST COMPANY, as
Trustee of the Milton Hershey School Trust,
Respondents.
CERTIFICATE OF SERVICE

I, Jarad W. Handelman, counsel for Respondents, hereby certify that on this
15th day of September 2021, I caused three copies of the Response to Petition for a
Writ of Certiorari to be served by overnight delivery on the following counsel:
John William Schmehl
Dilworth Paxson, LLP
1500 Market Street, Suite 3500E
Philadelphia, PA 19102
jschmehl@dilworthlaw.com
215-575-7201
Attorney for Petitioner

I further certify that all parties required to be served have been served.
/s/ Jarad W. Handelman
Jarad W. Handelman, Esquire
Elliott Greenleaf, P.C.
17 N. Second Street, Suite 1420
Harrisburg, PA 17101
(717) 307-2600
Dated: September 15, 2021
Counsel for Respondents

